UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

X

/?

No: 20-1640

Edward Davis
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:20-c v-00055 -LS C)
JUDGMENT
Before LOKEN, SHEPHERD, and STRAS, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied.. The appeal is dismissed.
The motion to proceed on appeal in forma pauperis is denied as moot.
July 07, 2020
-r

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

I

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

V

No: 20-1640
Edward Davis
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:20-cv-00055-LSC)
MANDATE
In accordance with the judgment of 07/07/2020, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in the above-styled
matter.
August 31, 2020
i

Clerk, U.S. Court of Appeals, Eighth Circuit
v-.;

f

i

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1640

■

C
V

Edward Davis
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:20-cv-00055-LSC)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
August 24, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Cans

!)•

A

8:15-cr-00247-LSC-TDT Doc #195 Filed: 02/05/20

Page 1 of 1 - Page ID # 617
V

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA

UNITED STATES OF AMERICA
Plaintiff,

8:15CR247

vs.
JUDGMENT
EDWARD DAVIS,
Defendant.

For the reasons stated in the Court’s Memorandum and Order of this date
IT IS ORDERED:

1.

The Court has completed its initial review of the Defendant's Motion under
28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence by a Person
in Federal Custody (“§ 2255 motion”), ECF 191;

2.

The Motion, ECF No. 191, is summarily denied;

3.

No certificate of appealability will be issued; and

4.

The Clerk is directed to mail a copy of this Judgment to the Defendant at
his last known address.

Dated this 5th day of February 2020.
BY THE COURT:
s/Laurie Smith Camp
Senior United States District Judge

1

l:

7

8:15-cr-00247-LSC-TDT Doc # 194 Filed: 02/05/20

Page 1 of 4 - Page ID # 613

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA

UNITED STATES OF AMERICA,
8:15CR247

Plaintiff,
vs.

MEMORANDUM AND ORDER

EDWARD DAVIS,
Defendant.

This matter is before the Court on the Defendant’s Motion under 28 U.S.C. §
2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody, ECF
No. 191.
Rule 4(b) of the Rules Governing Section 2255 Proceedings for the United States
District Courts requires initial review of a § 2255 motion, and describes the initial review
process:
The judge who receives the motion must promptly examine it. If it
plainly appears from the motion, any attached exhibits, and the record of
prior proceedings that the moving party is not entitled to relief, the judge
must dismiss the motion and direct the clerk to notify the moving party. If
the motion is not dismissed, the judge must order the United States
attorney to file an answer, motion, or other response within a fixed time, or
to take other action the judge may order.

FACTUAL BACKGROUND

i

i.

On April 19, 2016, the Defendant pled guilty to Counts I and II of the Indictment,
charging him with Bank Robbery in violation of 18 U.S.C. § 2113(a> (Count I), and Use
of a Firearm During a Crime of Violence in violation of 18 U.S.C. 6 924(cV1)(A) (Count
II). He was sentenced on August 4, 2016, to a term of 99 months on Counts I, and 84
months on Count II, consecutive, followed by three years of supervised release on
Counts I and five years on Count II, concurrent. He did not appeal.

i

8:15-cr-00247-LSC-TDT Doc # 194 Filed: 02/05/20

Page 2 of 4 - Page ID # 614

The Defendant now argues that the Supreme Court’s decision in United States v.
Davis, 139 S. Ct. 2319 (2019), provides him with relief because the predicate offense of
bank robbery was not categorically a violent crime sufficient to support a conviction on
Count II, The Defendant asserts that bank robbery under 18 U.S.C. $ 2113(,a') may be
committed through intimidation, as well as through force and violence, and that the
statute includes the offense of entering financial institutions with the intent to commit
any felony affecting the institution, or any larceny. '
DISCUSSION
As amended by the Antiterrorism and Effective Death Penalty Act of 1996
("AEDPA"), 28 U.S.C. § 2255 imposes a one-year statute of limitations on § 2255
motions, stating in pertinent part:
A 1-year period of limitation shall apply to a motion under this
section. The limitation period .shall run from the latest of(1)

the date on which the judgment of conviction becomes final;

2255
the date on which the impediment to making a motion
(2)
created by governmental action in violation of the Constitution or laws of
the United States is removed, if the movant was prevented from making a
motion by such governmental action;
the date on which the right asserted was initially recognized
(3)
by the Supreme Court, if that right has been newly recognized by the
Supreme Court and made retroactively applicable to cases on collateral
review; or
(4)
the date on which the facts supporting the claim or claims
presented could have been discovered through the exercise of due
diligence.
28 U.S.C. S 2255fflm-(4V
In Davis, decided June 24, 2019, the Supreme Court held the residual clause of
18 U.S.C. § 924(cV defining a “crime of violence” in § 924(c)(3)(B), is unconstitutionally
2

8:15-cK)0247-LSC-TDT

Doc # 194 Filed: 02/05/20

Page 3 of 4 - Page ID # 615
l

vague. The Defendant asserts that his Motion is timely under § 2255(f)(3), because it
was filed within one year of the Supreme Court’s decision in Davis, and that bank
robbery falls within the residual clause of § 924(c).
Whether or not the Davis decision is one made retroactively applicable to cases
on collateral review, and whether the Defendant’s Motion is thus timely or not, the
Motion is without merit.
“Crime of violence” is defined in 18 U.S.C. 5 924('cU31 as “an offense that is a
felony and—(A) has as an element the use, attempted use, or threatened use of
physical force against the person or property of another, or (B) that by its nature,
involves a substantial risk that physical force against the person or property of another
may be used in the course of committing the offense.”
V-

The Defendant's crime of bank robbery was a qualifying predicate offense as a
crime of violence under § 924(c)(3)(A).

See Estell v. United States, 924 F.3d 1291.

1293 (8th Cir. 2019) (holding bank robbery under § 2113(a) qualifies as crime of
. violence under § 924(c)(3)(A), even when committed by intimidation).
A petitioner under 28 U.S.C. S 2255 may not appeal an adverse ruling unless he
is granted a certificate of appealability. 28 U.S.C. $ 2253fcH1): Fed. R. App. P. 22(b)(1)
A certificate of appealability will not be granted unless the movant has “made a
substantial showing of the denial of a constitutional right." § 2253(c)(2). To show this
0-

denial, ”[t]he petitioner must demonstrate that reasonable jurists would find the district
court's assessment of the constitutional claims debatable or wrong." Slack v. McDaniel,
529 U.S. 473. 484 (2000). The Defendant made no such showing, and no certificate of
appealability will be issued.
3

V

8:15-cr-00247^LSC-TDT Doc # 194 Filed: 02/05/20

Page 4 of 4 - Page ID # 616

Accordingly
IT IS ORDERED:

1.

The Court has completed its initial review of the Defendant’s Motion under
28 U.S.C. $ 2255 to Vacate, Set Aside, or Correct Sentence by a Person
in Federal Custody (“§ 2255 motion"), ECF 191:

2.

The Motion, ECF No. 191. is summarily denied;

3.

No certificate of appealability will be issued;

4.

A separate Judgment will be entered;

5,

The Clerk is directed to mail a copy of this Memorandum and Order to the
Defendant at his last known address.

Dated this 5th day of February 2020.
BY THE COURT:
s/Laurie Smith Camp
Senior United States District Judge

j-

*

V'

$

4

